                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: I06080020
                                                                                  11          Page 1 of 1


         This investigation was initiated after receiving an allegation that a Principal Investigator (PI)' on
         a NSF grant2to a university3 had misused grant funds to pay for a babysitter for his children. The
         university Internal Audit Department joined our investigation to resolve this allegation.

         Review of grant expenditures to identified that several graduate students and post doctorial
         researchers were supported by the NSF grant funds. With the assistance of the university Internal
         Audit Department, we interviewed all students and researchers supported by the grant. ' We found
         that these individuals did provide voluntary babysitting services after the PI was hospitalized
         with a medical emergency. We determined that these services were completely voluntary and did
         not affect the responsibilities of those supported by the grant; therefore, no funds were misused.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
